<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-36]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-36
 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2008

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                               __________

                    Department of Homeland Security
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
33-920                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                  Terrence E. Sauvain, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        TED STEVENS, Alaska
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
PATTY MURRAY, Washington             PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
FRANK R. LAUTENBERG, New Jersey      LARRY CRAIG, Idaho
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                           Professional Staff
                            Charles Kieffer
                              Chip Walgren
                            Drenan E. Dudley
                              Tad Gallion
                            Christa Thompson
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)
                      Mark Van de Water (Minority)


                            C O N T E N T S

                              ----------                              

                        Thursday, March 8, 2007

                                                                   Page
Department of Homeland Security..................................     1
Nondepartmental Witnesses........................................   185


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Leahy, Murray, Landrieu, 
Lautenberg, Nelson, Cochran, Stevens, Shelby, Craig, and 
Alexander.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. MICHAEL CHERTOFF, SECRETARY


              opening statement of senator robert c. byrd


    Senator Byrd. Welcome, Secretary Chertoff. You've been here 
long enough to know what the problems are, and you should be 
able to answer the tough questions.
    This is the first hearing of the Homeland Security 
Subcommittee during the 110th Congress. The Department of 
Homeland Security has had the benefit of oversight from two 
excellent Subcommittee chairmen during the Department's 4-year 
history. Senator Thad Cochran, and Senator Judd Gregg. It would 
be difficult, Mr. Chairman, to live up to the standard that you 
and Senator Gregg have set. But, I look forward to the 
challenge.
    Mr. Secretary, thank you for appearing here today.
    You manage a department that employs over 192,000 dedicated 
men and women. These workers serve on the front lines. The 
front lines, securing our ports and waterways, securing our 
borders, enforcing our immigration laws, protecting the 600 
million flyers who use our airports each year, and responding 
to disasters. I commend them for their dedication, and their 
service to preserving our freedoms and securing our homeland.
    Two years ago, Senator Craig and I, with support from 
Chairman Gregg offered an amendment to begin the process of 
hiring and training a significant number of border patrol 
agents, and immigration investigators.
    Despite opposition from the White House, the funds for 
enhanced border security were enacted into law. Since 2004, on 
a bipartisan basis, we have increased the number of border 
patrol agents by 4,000, the number of immigration enforcement 
personnel by 1,373, and the number of detention beds by 9,150.
    So, Mr. Secretary, I'm pleased that the President's budget 
for fiscal year 2008 includes significant additional resources 
for improving security at our borders.
    Regrettably, the President's budget did not commit 
significant resources to other known vulnerabilities in this 
country. The administration continues to attempt to secure the 
Nation on the cheap. In every State of the Union address since 
the attacks on 9/11, the President has raised the specter of 
another attack.
    In January he said, ``Every success against a terrorist is 
a reminder of the shoreless ambitions of this enemy. In the 6 
years since our Nation was attacked, I wish I could report to 
you that the dangers have ended. They have not.'' Yet, when you 
dig through the details and decipher the book-cooking in the 
President's budget, and truly understand the consequences of 
the budget, the increase that is proposed for Homeland Security 
is only 1 percent, 1 percent.
    The administration has a huge credibility gap when it comes 
to Homeland Security. In August, after the arrests in Britain 
of potential terrorists who plotted to blow up commercial 
airliners over the Atlantic Ocean, you elevated the threat-risk 
level in the aviation sector to ``orange,'' or high, orange. 
And it remains there today, orange.
    Yet, the President's budget that is before the 
subcommittee, proposes to cut funding for purchasing and 
installing explosives-detection equipment at airports by 17 
percent.
    According to your own Department's nationwide plan review, 
61 percent of the States, and 69 percent of the urban areas, do 
not have adequate plans to respond to a catastrophic event. 
Hurricanes Katrina, Rita and Wilma, certainly proved that we 
are not prepared to respond to such an event, or a mass 
evacuation.
    Yet, the President's budget proposes to cut first responder 
grants by $1.2 billion--B-I-L-L-I-O-N--$1.2 billion, and to 
freeze funding for emergency management performance grants.
    In recent years there have been deadly attacks on trains in 
London, Madrid, Moscow, Tokyo, and Mumbai, India. Hundreds of 
innocent people have lost their lives. The Department has 
responded with unenforceable policy directives, two small pilot 
projects, the results of which have not been applied 
nationally, and a budget that proposes to fund the mass transit 
and rail security program at the inadequate 2007 level of $175 
million.
    I also figure that the Department is far too reliant on 
what I would call paper security. The Department is reliant on 
standards that are not enforced, and on reports prepared by 
contractors that are never executed. Five years since 9/11, the 
majority of cargo containers that are loaded onto passenger 
aircraft are not N-O-T not inspected. We rely on a paper 
process for determining the threat potential of 3,800 freight 
forwarders, who have access to air cargo in 10,000 facilities. 
Congress has added funding for 300 air cargo inspectors, none 
of whom are being used to actually inspect cargo.
    Now, with regard to inspecting the 11 million cargo 
containers that are shipped into this country, we physically 
inspect only 5 to 7 percent. How, how, how can you ride herd on 
an aggressive and regular basis over more than 6,100 trading 
partners in nearly 60 countries who ship cargo into this 
country with only 157 supply-chain security specialists? And 
yet, the President does not seek additional security 
specialists for fiscal year 2008.
    Mr. Secretary, you have taken on the task of managing a 
Department within an organization that was flawed at its 
inception. I said so then. Flawed at its inception. In its 
short 4-year history, the Department has been reorganized nine 
times.
    I know you're committed to securing the homeland. But I do 
not understand why this administration insists on hamstringing 
the Department with a status quo budget. Can you explain that? 
Can anyone? I doubt it.
    Mr. Secretary, you have a tough job. Following any opening 
remarks that Senator Cochran might have, we look forward to 
your testimony.
    Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming the distinguished Secretary of Homeland Security to 
our Committee. We appreciate his leadership of the Department, 
and his assistance in describing the Department's priorities as 
we begin the year's appropriations process.
    The discretionary appropriations request included in the 
budget submitted for the Department is $32.4 billion, which is 
an increase of just over 1 percent from the current year's 
level.
    Mr. Secretary, I compliment you for not including the 
presumption that aviation security fees will be approved by the 
Congress. I also want to compliment you for the Department's 
response to the U.K. airline bombing plot last August. The 
Transportation Security Administration deserves commendation 
for creating a flexible program to meet threats to aviation.
    In the past 2 years, you have managed a substantial 
increase in funding for border security, and you have overseen 
the ending of the practice of catch-and-release on the 
Southwest border. I'm also pleased to see that you are on-track 
to meet the aggressive hiring targets that were funded during 
the past 2 years for Customs and Border Protection, and 
Immigration and Customs Enforcement.


                           PREPARED STATEMENT


    The people of my State appreciate very much the 
Department's efforts to respond to the Hurricanes Katrina and 
Rita. The devastation caused by those hurricanes continues to 
be a reminder of the importance of this Department's mission. 
Our State's Governor, Haley Barbour, has worked closely with 
your agencies to recover and rebuild. He has said, on several 
occasions, and I agree, that the Federal Government has been a 
strong partner with the States. We need to ensure that this 
partnership will continue.
    Welcome to the hearing.
    Senator Byrd. The subcommittee has received a statement 
from Senator Shelby which will be placed in the hearing.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Mr. Chairman, thank you for holding this important hearing today.
    Secretary Chertoff, I appreciate you appearing before the 
committee. I believe it is essential to hear directly from you about 
the Department's needs, challenges, and goals.
    Last week, I visited Alabama after a tornado ripped through the 
State. In Enterprise, the tornado destroyed a high school, killing 9 
people. The same storm system killed another Alabamian half way across 
the State in Miller's Ferry. This was a horrific natural disaster 
causing nearly $400 million in damage in Alabama alone. Lives were 
shattered and communities are struggling to cope with the aftermath of 
the storm.
    It was this visit in the aftermath of the storm that reminded me of 
the great need for preparedness. We won't always be able to predict 
when disaster will strike, but having a capable, tested system in place 
will allow us to react effectively. And it is your Department, 
Secretary Chertoff, the Department of Homeland Security that we turn to 
after events like the one we faced in Alabama last week.
    While the Department has made some major mistakes in the past when 
responding to other natural disasters, I am confident that you are 
making progress. The recent response in Alabama was quick and decisive. 
The affected communities came together to react to the damage and with 
the assistance of the Department of Homeland Security, Alabama is 
moving towards a swift recovery.
    The storms last week once again reinforced the importance that we, 
as a Nation, must become better prepared to respond to all disasters 
whether they are acts of God or acts of man. While the risk of another 
terrorist attack is as real today as it was 6 years ago, we must ensure 
that our Nation is prepared to respond effectively to all disasters we 
may face. We cannot stop training our first responders for the next 
terrorist attack. We must remain vigilant and continue funding 
essential programs to keep our Nation ready to deter and respond to the 
next disaster--in whatever form it may take.
    A plan without proper execution is merely words on paper. And 
proper execution can only occur with well-trained, properly equipped 
first-responders. Whether it is a FEMA recovery team, a State emergency 
management group, or a volunteer search and rescue squad, we must do 
everything in our power to ensure that those responsible for executing 
the plan are able to act swiftly and appropriately in order to save 
lives and property from further destruction. In particular, Mr. 
Secretary, I am interested in hearing the Department's efforts to 
effectively train the men and women that are willing to put themselves 
in harm's way when duty calls and disaster strikes. I am particularly 
interested because Alabama has our Nation's only live-agent training 
facility for civilian first responders, The Center for Domestic 
Preparedness or CDP.
    In addition, Mr. Secretary, I remain concerned about the problem of 
illegal immigration. Our immigration laws must be enforced. If they are 
not enforced, what is their purpose?
    Enforcing our current immigration laws would send a message to 
those seeking to enter this country illegally, that breaking our laws 
is not a lucrative endeavor when you are immediately deported. Our law 
enforcement must be agile and efficient but more importantly, able to 
enforce the law. Those in search of a better way of life through 
immigration are welcome, but only if they do so legally.
    Ours is a Nation of laws Mr. Secretary, and to continuously reward 
those that ignore the law or to turn a blind eye sends the wrong 
message to those who come here legally and those that follow our laws 
each and every day.
    Mr. Secretary, as I travel through Alabama and hear from my 
constituents, illegal immigration is the number one topic of 
discussion. Alabamians are searching for answers. They want to know why 
they are raising their children to obey the law when our own government 
is encouraging others to break the law. What's more, they are not 
punished, in fact many are proposing to reward them. Yet hundreds of 
thousands of people are sitting behind bars today for breaking the 
law--the difference is that they didn't enter the country illegally, 
they were already here. Mr. Secretary, how do you differentiate between 
the laws that are acceptable to break and those that are unacceptable 
to break?
    I look forward to hearing from you about what your Department is 
doing to address this pressing, and increasingly threatening, issue.
    The Senate has a responsibility to make sure the Department of 
Homeland Security is adequately funded so that it may carry out its 
mission, but it would be imprudent for us to go about this blindly. We 
want to make sure that you are better organized and that you have 
learned from the mistakes of the past.
    Again this is a critical hearing and I applaud the Chairman for 
holding it today.
    Thank you Mr. Chairman.
     department's response to the center for domestic preparedness
    Answer. The Department provides Federal leadership and resources to 
strengthen State and local governments' preparedness capabilities--with 
the goal of reducing the Nation's risk as a whole while increasing the 
collective ability to address catastrophic events. To fulfill this 
critical mission, first responders must have the necessary training and 
knowledge to mitigate a range of threats. The Department fulfills this 
requirement in a number of ways.
    The Training Division within the Department's Office of Grants and 
Training assists first responders by serving as a central resource for 
the creation, management, and dissemination of high-quality 
preparedness training and related products. Over 100 Grants & Training-
supported courses are available to emergency responders across the 
Nation through 45 training providers. In fiscal year 2006, over 700,000 
first responders were trained through these providers. Courses are 
offered in Agro-terrorism, Cyber Security, Weapons of Mass Destruction, 
Hazardous Materials, Intelligence Capacity, Transit Security, and 
Vigilant Communities. The Training Division also maintains course 
catalogs of State and other Federal training courses for over 150 
courses.
    The Federal Emergency Management Agency (FEMA) operates the 
Emergency Management Institute (EMI), a national training center for 
emergency planning, exercise design, and incident command operations 
for Federal, State, local, tribal and private sector individuals. EMI 
curricula are structured to meet the needs of this diverse audience 
with an emphasis on how the various elements work together in 
emergencies to save lives and protect property. Instruction focuses on 
the four phases of emergency management: mitigation, preparedness, 
response, and recovery. EMI develops courses and administers resident 
and non-resident training programs in areas such as natural hazards 
(earthquakes, hurricanes, floods, dam safety), technological hazards 
(hazardous materials, terrorism, radiological incidents, chemical 
stockpile emergency preparedness), professional development, 
leadership, instructional methodology, exercise design and evaluation, 
information technology, public information, integrated emergency 
management, and train-the-trainers. Additionally, the U.S. Fire 
Administration/National Fire Academy (NFA) promotes the professional 
development of the fire and the emergency response community and its 
allied professionals. The NFA delivers educational and training courses 
having a National focus to supplement and support State and local fire 
service training programs.
    Within the Department's Federal Law Enforcement Training Center 
(FLETC), the Counterterrorism Division (CTD) provides several courses 
of instruction to First Responders, both at the basic and advanced 
levels. Advanced First Responder-related training is also provided to 
State, local, tribal and campus law enforcement colleagues. First 
Responder training delivered to basic students includes Introduction to 
Man-Portable Air Defense Systems, Vehicle-Borne Improvised Explosive 
Devices, Bombs & Explosives, Elements of Suicide Bombers, National 
Incident Management System, Incident Command System, and Critical 
Incident Response, and Response to Weapons of Mass Destruction /
Hazardous Material situations. These courses are delivered throughout 
the FLETC Basic Training Programs to students from more than 80 Federal 
agencies.
    Plans for the ``New FEMA'' call for the Center for Domestic 
Preparedness in Alabama to be a key component of FEMA's new National 
Preparedness Directorate's National Integration Center (NIC). The NIC 
will include a specialized office for integration and coordination of 
emergency management and emergency preparedness training and exercises 
to ensure the most effective use of the Nation's training and exercise 
assets. The NIC will also include among its components the Noble 
Training Center and EMI; will have strong ties to the NFA; and, will 
coordinate its efforts with other training partners, including the 
National Domestic Preparedness Consortium, TRADE, and other colleges, 
universities and training facilities. This approach will support a more 
coordinated and effective emergency preparedness and management 
training program that will help ensure that the Nation's first 
responders are properly trained for their responsibilities.
    While the Department of Homeland Security (DHS) has made measurable 
progress in achieving effective control of the border and improving the 
enforcement of our immigration laws in the interior, in order to 
continue on this path of success, we need your help by giving us 
effective tools to do our job. We appreciate the ongoing consideration 
for comprehensive immigration reform within the Congress. DHS is 
committed to the President's vision of immigration reform based on five 
main pillars: (1) gaining effective control of the border; (2) building 
a robust interior enforcement program; (3) establishing a Temporary 
Worker Program (TWP); (4) bringing illegal aliens who are now in the 
United States out of the shadows; and (5) promoting assimilation of new 
immigrants into our society.

    Senator Byrd. Mr. Secretary.

                     STATEMENT OF MICHAEL CHERTOFF

    Secretary Chertoff. Mr. Chairman, thank you for inviting me 
to testify on the President's budget. I appreciate the 
opportunity to appear before you and Ranking Member Cochran and 
the other members of the committee to talk about what our 
priorities are for the coming fiscal year. I have a somewhat 
more extensive statement than I propose to deliver orally, and 
I ask that it be made part of the record.
    Senator Byrd. It will be made part of the record.
    [The statement follows:]

                 Prepared Statement of Michael Chertoff

    Mr. Chairman, Senator Cochran, and Members of the Subcommittee, as 
this is my first opportunity to appear before this Subcommittee in the 
110th Congress, let me start by saying that I look forward to working 
with you in not only securing the appropriate resources, but making 
sure that we use them in the most effective and efficient manner to 
protect the homeland and the American people. While we have had many 
successes, there are numerous challenges that still remain. I am here 
today to ask for your partnership and support as we face these 
challenges. We may not see eye to eye on all issues, but we certainly 
agree that our interests are best served when we work together to 
achieve our common goal of securing this great Nation.
    I am pleased to appear before the Subcommittee today to highlight 
some of our key accomplishments of the last year and present President 
Bush's fiscal year 2008 budget for the Department of Homeland Security 
(DHS). Five years after September 11, 2001, DHS is more dedicated than 
ever to our vision and accomplishing our mission. September 11, 2001, 
will forever be etched in our souls as we remember the lives lost, the 
terror felt, the sacrifices made, and the courage shown. As a result of 
the deliberate and malicious acts of our enemies that occurred on that 
day, the Department was formed and charged with the significant 
responsibility of securing America. As we approach our fourth 
anniversary on March 1, 2007, we recognize that the Department has 
endured challenges, yet bravely stood in the face of our Nation's 
enemies, diligently building systems to secure our homeland with 
urgency, flexibility and resolve.
    We must focus on the greatest risks and be flexible to changing 
threats, disciplined in our use of resources, and fully committed to 
building a Department that will meet future challenges, preserve 
freedom and privacy, and protect the American people. To achieve this, 
we will place considerable attention over the next 2-year period on the 
following five goals: 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We have already made great progress in each of these areas, and 
with the fiscal year 2008 Budget, we will continue that momentum. Let 
me highlight some of our key accomplishments along with initiatives and 
ongoing programs in our fiscal year 2008 budget request.
    Overall, the fiscal year 2008 budget request for the Department of 
Homeland Security represents an 8 percent increase over fiscal year 
2007, with a total request of $46.4 billion in funding. The 
Department's fiscal year 2008 gross discretionary budget is $37.7 
billion, an increase of 8 percent. Gross discretionary funding does not 
include funding such as Coast Guard's retirement pay accounts and fees 
paid for immigration benefits. The Department's fiscal year 2008 net 
discretionary budget is $34.3 billion, which does not include fee 
collections such as funding for the Federal Protective Service (ICE), 
aviation security passenger and carrier fees (TSA), credentialing fees 
(such as TWIC-TSA), and premium collections (National Flood Insurance 
Fund, FEMA). It should also be noted that the fiscal year 2008 
President's Budget request reflects the Notice of Implementation of the 
Post-Katrina Emergency Reform Act of 2006 (Public Law 109-295) and of 
Additional Changes Pursuant to Section 872 of the Homeland Security Act 
of 2002, provided to Congress on January 18, 2007. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            GOAL 1: PROTECT OUR NATION FROM DANGEROUS PEOPLE

    We have accomplished a lot in terms of continuing to protect our 
Nation from dangerous people. Key accomplishments supporting this goal 
are as follows:
    6,000 National Guard Deployed to Border.--In support of the 
President's initiative to secure the border, 6,000 National Guard 
personnel were deployed to the Southwest border as part of Operation 
Jumpstart. In addition to the National Guard deployment, Border Patrol 
agent staffing increased by 8 percent, from over 11,200 to 12,349, as 
shown in the chart below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ``Catch and Return'' Replaced ``Catch and Release'' Along the 
Borders.--As part of the Secure Border Initiative, the Department ended 
the practice of ``catch and release'' along the Southern and Northern 
borders. In the past, we apprehended illegal aliens from countries 
other than Mexico and then released them on their own recognizance. 
Often these illegal aliens failed to return for their immigration 
hearings. In July of 2005, we were releasing up to 80 percent of non-
Mexican illegal aliens because we did not have the bed space to hold 
them. As of August 2006, we are holding 100 percent. When people know 
they will be held in detention and then returned to their home country, 
it creates a strong disincentive to cross illegally in the first place. 
Ending this practice and replacing it with ``catch and return'' is a 
breakthrough in deterring illegal immigration on the Southern border. 
This accomplishment is one that many considered impossible in 2005 when 
only approximately 34 percent of apprehended non-Mexican aliens were 
detained. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Apprehension Rates Declined.--Fiscal year 2006 showed a marked 
decrease in the apprehension rate due, in principle, to the end of 
``catch and release,'' the implementation of Operation Jumpstart, and 
the expanded use of expedited removal procedures. The graph below 
provides historical data by fiscal year for total apprehensions of both 
Mexican and non-Mexican aliens between U.S. ports of entry. CBP's 
Office of Border Patrol (OBP) made nearly 100,000 fewer apprehensions 
in fiscal year 2006 than in fiscal year 2005 due to these factors. This 
decline is represented below by quarter. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Border Security At and Between the Nation's Ports of Entry 
Increased.--By deterring illegal immigration, security has been 
strengthened. DHS can more effectively target resources to control our 
borders with fewer alien crossings. As shown in the chart above, CBP 
Border Patrol agents reduced the number of apprehensions at the borders 
by more than 8 percent in fiscal year 2006. As a result of targeted 
coordinated enforcement efforts, CBP Border Patrol reduced non-Mexican 
illegal alien apprehensions by 35 percent.
    CBP Increased Capability to Secure the Northern Border.--CBP Air 
and Marine opened its third of five Air Branches planned for the 
Northern border of the United States. The Great Falls Air Branch in 
Montana joins the Bellingham, Washington, and Plattsburgh, New York, 
Air Branches in supporting Homeland Security efforts along the Northern 
tier.
    Ports of Entry Inspections Formed First Line of Defense at Land 
Borders.--CBP officers inspected 422 million travelers and more than 
132 million cars, trucks, buses, trains, vessels, and aircraft. CBP 
officers inspected 1.19 million private vehicles, 11.48 million trucks, 
and more than 1 million aircraft.
    ICE Set New Records for Worksite Enforcement and Compliance 
Enforcement.--As depicted in the graph below, in fiscal year 2006 more 
than 4,300 arrests and apprehensions were made in ICE worksite 
enforcement cases, more than seven times the arrests and apprehensions 
in fiscal year 2002, the last full year of operations for the U.S. 
Immigration and Naturalization Service (INS). ICE completed 5,956 
compliance enforcement investigations resulting in the administrative 
arrest of 1,710 overstay and status violators, a 75 percent increase 
over the number of administrative arrests in fiscal year 2005. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ICE Set New Record for Alien Removals.--ICE removed 189,670 illegal 
aliens from the country in fiscal year 2006, a 12 percent increase over 
the number of removals during the prior fiscal year. As shown in the 
following chart, ICE also increased its detention bed space by 6,700 
and is now funded for a total of 27,500 beds for fiscal year 2007. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    US VISIT's Biometric Program Kept Terrorists and Other Criminals 
Out of Our Country.--US VISIT's biometric program increased watch list 
hits by 185 percent at consular offices. Keeping terrorists and other 
criminals out of our country protects the American people, while 
facilitating visits from legitimate travelers. In fiscal year 2006 
there were 2,558 watch list hits at consular offices, up from 897 hits 
in fiscal year 2005. The use of biometrics has allowed DHS to deny 
entry to more than 1,100 known criminals and visa violators.
    TSA Responded to Liquid Explosive Threat.--Although over 600 
million people fly each year, the Transportation Security 
Administration was able to perform necessary passenger screening 
operations preventing and protecting against adverse actions while 
attaining a new high in customer satisfaction. Customer satisfaction 
reached 81 percent, a new high for screening operations at the Nation's 
security checkpoints. In addition, in response to the foiled terror 
plot in England, TSA trained its 43,000 security officers to address 
the threat of liquid explosives. After two days, security wait times 
returned to normal levels. Six weeks later, after conducting extensive 
explosive testing with our Federal partners, TSA again proved its 
flexibility by modifying its ban on liquids by allowing limited 
quantities onboard aircraft. Again, efficiency was not seriously 
affected and in fact wait times during the Thanksgiving holiday in 2006 
were slightly lower than in 2005.
    U.S. Coast Guard Migrant Interdiction Efforts Contributed to Border 
Security. The Coast Guard evaluates its migrant interdiction 
effectiveness by counting the number of undocumented migrants from four 
primary source countries (Cuba, Haiti, the Dominican Republic, and the 
Peoples Republic of China) against the combined estimated yearly 
migration threat from these countries. There were 5,552 successful 
migrant arrivals out of an estimated threat of 51,134 migrants in 
fiscal year 2006, yielding a deterrence and interdiction rate of 89 
percent.
    Intelligence Campaign Plan for Border Security (ICP).--The ICP, 
managed by the Office of Intelligence and Analysis, is a departmental 
planning effort to provide comprehensive and coordinated intelligence 
support for the full spectrum of the Department's border security 
operations. The ICP is linking DHS intelligence resources, and those of 
State and local partners, with the Intelligence Community in order to 
deliver actionable intelligence to front-line operators and to fuse 
national intelligence with law enforcement information. As part of the 
ICP, we began developing and implementing, in partnership with the 
Director of National Intelligence, a robust strategy for collection and 
analysis of border security intelligence to support our operational 
missions. In addition, DHS intelligence analysts draw on their 
extensive experience in the Intelligence Community to help ensure that 
the Department gets full benefit from national collection assets.
    The fiscal year 2008 budget request includes funding to continue 
the progress made in protecting our Nation from dangerous people. 
Examples are as follows:
  --Total funding of $1 billion is requested for the SBInet program to 
        support the deployment of an integrated infrastructure and 
        technology solutions for effective control of the border to 
        include fencing and virtual barriers to prevent illegal entry 
        into the United States.
  --Total funding of $778 million will provide for 3,000 additional 
        Border Patrol agents as well as the facilities to house the 
        agents, the support personnel, and equipment necessary to gain 
        operational control of our borders. This will bring the total 
        number of Border Patrol agents to 17,819 at the end of fiscal 
        year 2008. This will keep us on track to achieve the 
        President's goal of doubling the Border Patrol by the time he 
        leaves office.
  --Increased funding of $252 million is requested for implementation 
        of the Western Hemisphere Travel Initiative (WHTI) at land 
        ports of entry. The requested resources will advance the WHTI 
        goal of ensuring that all people arriving at U.S. ports of 
        entry have a valid and appropriate means of identification and 
        can be processed in an efficient manner.
  --An increase of $146.2 million for the transition to 10-Print and 
        IDENT/IAFIS Interoperability. The funding will provide the 
        capability to biometrically screen foreign visitors requesting 
        entry to the United States through the collection of 10-print 
        (slap) capture at enrollment. US VISIT, along with the 
        Departments of State and Justice, will be able to capture ten 
        fingerprints rather than the current two, as well as increased 
        interoperability between DHS' Automated Biometric 
        Identification System (IDENT) and Justice's Integrated 
        Automated Fingerprint Identification System (IAFIS).
  --An increase of $224.2 million in funding will support the 
        Transportation Security Administration's screening operations. 
        This includes funding for the Transportation Security Officers 
        (TSO), Document Checkers, Career Progression Program, and 
        procurement and installation of checkpoint support and 
        explosives detection systems. TSA has evolved its TSO workforce 
        to be highly responsive and effective in addressing the variety 
        of potential threats, such as those presented in August 2006 by 
        liquids, aerosols and gels. In fiscal year 2008, TSA will add 
        an important layer of defense for aviation security by assuming 
        responsibility of document checking.
  --An increase of $38 million in funding will support development of 
        the Secure Flight system. This includes funding for hardware 
        procurement, operations ramp-up and training, and network 
        interface engineering between the Secure Flight and the U.S. 
        Customs and Border Protection (CBP) Advance Passenger 
        Information System (APIS) network. Secure Flight will 
        strengthen watch list screening and vet all domestic air 
        travelers.
  --An increase of $28.7 million for the ICE Criminal Alien Program 
        (CAP) will ensure the safety of the American public through the 
        addition of 22 CAP teams. These teams will identify and remove 
        incarcerated criminal aliens so they are not released back into 
        the general population.
  --An increase of estimated fee revenue of $16.5 million in funding 
        will support the Transportation Worker Identification 
        Credential (TWIC) which will establish an integrated, 
        credential-based, identity verification program through the use 
        of biometric technology. In order to gain unescorted access to 
        the secure areas within the Nation's transportation system, 
        transportation workers who need access to these areas will go 
        through identity verification, a satisfactory background check 
        and be issued a biometrically verifiable identity card to be 
        used with local access systems. The TWIC final rule has very 
        recently been issued, and initial enrollment for this program 
        is scheduled to begin in March 2007.
  --A total of $788.1 million is requested for the Coast Guard's 
        Integrated Deepwater System. This funding will: complete the 
        acquisition of four National Security Cutters; fund engineering 
        and design costs for the Replacement Patrol Boat; and purchase 
        four additional Maritime Patrol Aircraft. These long-awaited 
        upgrades to its fleet will strengthen the Coast Guard's ability 
        to safeguard our seaports from terrorists seeking to enter the 
        country or transport dangerous weapons or materials.
  --A funding request of $30 million for U.S. Citizenship and 
        Immigration Services' Employment Eligibility Verification (EEV) 
        Program. Through this voluntary web-based program U.S. 
        employers are able to quickly verify the employment eligibility 
        of their employees, helping them avoid the hiring of 
        unauthorized workers.
  --Total funding of $263 million requested for the Federal Law 
        Enforcement Training Center (FLETC) will provide the most 
        current basic and advanced training for our Nation's law 
        enforcement officers. FLETC will provide training for over 
        53,000 students in fiscal year 2008 including an estimated 
        4,350 Border Patrol Agents, 60 ICE Investigators and 530 ICE 
        Detention Personnel in support of the Secure Border Initiative.

            GOAL 2: PROTECT OUR NATION FROM DANGEROUS GOODS

    We have also made a lot of progress in protecting our Nation from 
dangerous goods. Key accomplishments include:
    Increased the Number of Containers Inspected Prior to Entering the 
United States.--Almost seven million cargo containers arrive and are 
offloaded at U.S. seaports each year. CBP increased the percent of 
shipping containers processed through its Container Security Initiative 
prior to entering U.S. ports from 48 percent in fiscal year 2004 to 82 
percent in fiscal year 2006. This significantly decreases the risk of 
terrorist materials entering our country while providing processes to 
facilitate the flow of safe and legitimate trade and travel from more 
foreign ports.
    DHS Deployed Over 880 Radiation Portal Monitors at Land and Sea 
Ports.--DHS deployed 283 new radiation portal monitors throughout the 
Nation's ports of entry, bringing the number of radiation portal 
monitors to 884 at the Nation's land and sea ports of entry. These 
additional RPMs allow us to inspect 90 percent of incoming cargo 
containers, an increase of approximately 30 percent from this time last 
year.
    DNDO Awarded over $1 Billion for Next Generation Nuclear Detection 
Devices.--DNDO announced the award of Advanced Spectroscopic Portal 
(ASP) program contracts totaling $1.15 billion to enhance the detection 
of radiological and nuclear materials at the Nation's ports of entry. 
ASP models were deployed to the Nevada Test Site, where they will be 
tested using nuclear threat material. Portals have also been delivered 
to the New York Container Terminal for data collection.
    Secure Freight Initiative Launched to Begin Screening at Foreign 
Ports.--DHS and the Department of Energy announced the first phase of 
the Secure Freight Initiative, an unprecedented effort to build upon 
existing port security measures by enhancing the Federal Government's 
ability to scan containers for nuclear and radiological materials 
overseas and to better assess the risk of inbound containers. The 
initial phase involves the deployment of a combination of existing 
technology and proven nuclear detection devices.
    Protected Air Cargo.--Recently published air cargo security rules 
help prevent the use of air cargo as a means of attacking aircraft. The 
rules mark the first substantial changes to air cargo regulations since 
1999, and represent a joint government-industry vision of an enhanced 
security baseline. These new measures will be enforced by an expanded 
force of air cargo inspectors, who will be stationed at the 102 
airports where 95 percent of domestic air cargo originates.
    U.S. Coast Guard Set Records for Drug Seizures and Arrests.--This 
year, counter-drug boardings from United States and Royal Navy vessels 
resulted in all-time records for seizures and arrests. The 93,209 
pounds of drugs that were seized was more than the combined amount 
seized in the last 2 years.
    The fiscal year 2008 budget request includes funding to build on 
the accomplishments made in protecting our Nation from dangerous goods. 
Some examples include:
  --Total funding of $178 million is requested for the procurement and 
        deployment of radiation portal monitors, including next-
        generation Advanced Spectroscopic Portal (ASP) systems. Our 
        goal is to screen almost 100 percent of arriving cargo at 
        seaports by the end of this year, and nearly 100 percent at all 
        of our ports of entry by the end of fiscal year 2008.
  --An increase of $15 million is requested for the Secure Freight 
        Initiative that is designed to maximize radiological and 
        nuclear screening of U.S. bound containers from foreign ports. 
        Secure Freight includes a next generation risk assessment 
        screening program and an overseas detection network, while 
        merging existing and new information regarding containers 
        transiting through the supply chain to assist customs and 
        screening officials in making security and trade decisions.
  --An increase of $47.4 million is requested for DNDO's ``The 
        Acceleration of Next-Generation Research and Development'' 
        program which will increase funding across multiple DNDO 
        Research, Development, and Operations program areas. The 
        largest increases will be for the Systems Development 
        (including multiple variants of Advanced Spectroscopic Portal 
        systems) and Transformational Research and Development program 
        areas.

                GOAL 3: PROTECT CRITICAL INFRASTRUCTURE

    Working closely with State and local officials, other Federal 
agencies, and the private sector, DHS helps to ensure that proper steps 
are taken to protect critical infrastructure, property and the economy 
of our Nation from acts of terrorism, natural disasters or other 
emergencies. America's critical infrastructure includes food and water 
systems, agriculture, health systems and emergency services, 
information and telecommunications, banking and finance, energy 
(electrical, nuclear, gas and oil, dams), transportation (air, road, 
rail, ports, waterways), the chemical and defense industries, postal 
and shipping entities, and national monuments and icons.
    Summarized below are some of the key accomplishments associated 
with the goal of protecting critical infrastructure:
    Buffer Zone Protection Plans Helped Protect Communities from 
Potential Terrorist Attacks Against Chemical Facilities.--In 2006, 58 
percent of identified critical infrastructure has implemented Buffer 
Zone Protection (BZP) Plans, up significantly from our fiscal year 2005 
percentage of 18 percent. The Department worked in collaboration with 
State, local, and tribal entities by providing training workshops, 
seminars, technical assistance and a common template to standardize the 
BZP plan development process.
    DHS Completed the National Infrastructure Protection Plan (NIPP).--
The NIPP is a comprehensive risk management framework that clearly 
defines critical infrastructure protection roles and responsibilities 
for all levels of government, private industry, nongovernmental 
agencies and tribal partners.
    TSA Conducted Rail Security Explosives Detection Pilot Programs.--
Rail Security Explosives Detection Pilot Programs were conducted in 
Baltimore, MD and Jersey City, NJ to test and evaluate security 
equipment and operating procedures as part of DHS' broader efforts to 
protect citizens and critical infrastructure from possible terrorist 
attacks.
    U.S. Coast Guard Implemented the National Capital Region Air 
Defense Mission.--The U.S. Coast Guard officially assumed 
responsibility for air intercept operations in the Nation's capital 
from CBP. The Coast Guard will support the North American Aerospace 
Defense Command's mission with its rotary wing air intercept 
capability. Coast Guard HH-65C helicopters and crews will be 
responsible for intercepting unauthorized aircraft which fly into an 
air defense identification zone that surrounds Washington, D.C. Since 
assuming the mission on September 25, 2006, the Coast Guard has 
successfully responded to 23 of the 23 incursions into the National 
Capital Region Air Space.
    The Secret Service Continued its 100 Percent Protection Rate of Our 
Nation's Leaders.--To safeguard our Nation's leaders, the Department 
operates the Domestic Protectees program 24 hours a day, 365 days a 
year to protect the President and Vice President and their families, 
former Presidents and their spouses, and other individuals designated 
by statute or Presidential directive. All protectees arrived and 
departed safely 100 percent of the time at more than 6,275 travel stops 
during fiscal year 2006.
    We will protect critical infrastructure by continuing to foster 
mutually beneficial partnerships with industry owners and operators. 
Our fiscal year 2008 budget request builds on the 17 sector-specific 
plans as identified in the National Infrastructure Protection Plan 
(NIPP), which will be complete this year. We will continue to enhance 
protection through our chemical plant security program and regulations 
to protect high risk rail shipments in urban areas. The fiscal year 
2008 budget request will support this goal by providing:
  --An increase of $30 million is requested for DNDO's ``Securing the 
        Cities'' initiative. Building off analytical work done in 
        fiscal year 2006 and fiscal year 2007 in support of the New 
        York region, DHS will begin the implementation of strategies 
        developed through the course of this analysis. Activities 
        included in the development of regional strategies include 
        analyses of critical road networks, mass transit, maritime, and 
        rail vulnerabilities. DNDO will engage State and local partners 
        in additional urban areas beginning in fiscal year 2008 to 
        tailor strategies and lessons learned from the New York region 
        to meet requirements specific to these regions.
  --An increase of $21.9 million is proposed for the newly formed 
        Science and Technology Office of Innovation to provide 
        increases to programs developing game-changing and leap-ahead 
        technologies to address some of the highest priority needs of 
        the Department. The technologies being developed will be used 
        to create a resilient electric grid to protect critical 
        infrastructure sites, detect tunnels along the border, defeat 
        improvised explosive devices, and utilize high-altitude 
        platforms and/or ground-based systems for detection and 
        engagement of MANPADS in order to offer alternative solutions 
        to installing systems on aircraft.
  --An increase of $15 million is requested to improve Chemical Site 
        Security and regulate security of chemical plants. The funding 
        will be used to establish the Chemical Security Compliance 
        Division which will include a national program office to manage 
        training of inspector staff, help desk personnel and other 
        administrative staff. The division will also include an 
        Inspector/field staff of subject matter experts in chemical 
        engineering, process safety, as well as an adjudication office. 
        Funds will also be spent on assisting chemical facilities with 
        vulnerability assessments.
  --TSA requests an increase of $3.5 million to expand its National 
        Explosive Detection Canine Team program by approximately 45 
        teams to support the Nation's largest passenger transportation 
        systems in both mass transit and ferry systems.
  --An increase of $11.5 million is requested for the Coast Guard's 
        National Capital Region Air Defense program. This funding is 
        needed to make seven HH-65 helicopters fully mission ready, 
        enabling the Coast Guard to continue protecting the National 
        Capital Region against potential airborne attacks.
  --An increase of $35.6 million for the Presidential Campaign will 
        enable the Secret Service to provide the appropriate level of 
        resources to adequately protect the candidates and nominees 
        during the 2008 Presidential Campaign while sustaining other 
        protective programs.

   GOAL 4: BUILD A NIMBLE, EFFECTIVE EMERGENCY RESPONSE SYSTEM AND A 
                        CULTURE OF PREPAREDNESS

    We have taken many steps toward building a nimble, effective 
emergency response system and culture of preparedness. Before I 
highlight some of those steps, let me reflect on what has been 
accomplished in the Gulf Coast Region since Hurricane Katrina made 
landfall.
    DHS through the Federal Emergency Management Agency's (FEMA) 
disaster relief and recovery programs specifically, have provided an 
unprecedented amount of assistance to the Gulf Region following the 
devastation caused by Hurricanes Katrina, Rita and Wilma. Over 1.5 
million people were affected with over 800,000 displaced from their 
homes and communities. DHS is committed to continuing its efforts in 
working with its Fede
</pre></body></html>
